                              EXPORT-IMPORT BANK
                              of the UNITED STATES
                                   November 30 th , 2012

Mr. Osvaldo L. Gratac6s
Inspector General
Office of the Inspector General
Export-Import Bank of the United States
81 I Vermont A venue NW
Washington, DC 205?I

Dear Inspector General Gratac6s,

Thank you for providing Ex-1m Bank Management with the Office of the Inspector
General (OIG)'s Semi-Annual Report to Congress covering the period from April I st to
September 30 th , 20 I 2. This letter constitutes Management's response to the Report.
Management supports the OIG's work in prosecuting and preventing fraud against Ex-1m
Bank. We have carefully reviewed the recent audits of Ex-1m Bank' s Purchase Card
Program and Short-Term Insurance Program as well as your evaluation of Ex-1m Bank's
portfolio risk and loss reserve allocation policies. These exercises were helpful in
improving Bank processes and oversight.

This letter focuses on the section entitled "Management Challenges," as we have already
responded to the period's audits, evaluations, and inspections in prior correspondence.
While we concur with some of the OIG's observations, we disagree with a number of the
Report's conclusions. Moreover, we would like to draw your attention to projects
currently underway at the Bank that address many of the OIG's concerns.


    1. Human capital

The IG noted this concern in the March, 2012 Semi-Annual Report to Congress and
Management previously responded to it in detail in the May 17, 2012 Management
Response Letter.

We agree with the observation that Ex-1m Bank has achieved significant growth in
authorizations and assets over the past five years. Ex-1m Bank's dedicated employees
are to be commended for this laudable achievement which allowed the Bank to support
an estimated 255,000 U.S. jobs in FY12. We disagree, however, that customer service,
oversight, or due diligence have suffered as a result of its asset growth or staffing
constraints, and we see no evidence that Ex-1m Bank is at risk of higher default rates:

   •   Customer Service: We note that the OIG 's recent Customer Survey found that
       88% percent of Ex-Im customers were satisfied with Ex-Im ' s goods and services.



               811 Vermon t Avenue, N.W. Washington , D.C. 20571
    •   Default rate: According to the Bank' s September 30 th , 2012 Default Rate Report
        which was provided to Congress, the Bank's current default rate is 0.287%. In the
        June 30 th Default Rate Report provided to Congress, the Bank ' s default rate was
        0.3%. This is well below the 2% default rate benchmark that COn6'TeSS established
        for Ex-1m Bank in the 2012 Reauthorization Act, and is much lower than that of
        most private financial institutions.

We believe that the Bank does in fact continually reassess the assignment of resources
and staffing levels to reflect the growth in authorizations and exposure. However, we do
note that the Bank needs to increase staffing levels and in the Bank's FY 13 budget
request we have asked for a $14 million increase in our Administrative budget to enable
us to do so. Management is continually monitoring and improving its resource
allocations to reflect the Bank's evolving needs, commensurate with available resources
and mandates. With the increase in our FYI2 budget, the Bank hired 34 new employees
to fill key roles and provide requisite in-house expertise to reflect the Bank' s changing
requirements. These new employees are primarily concentrated in loan origination and
underwriting, small business outreach, and risk management.


    2. Information Technology (IT) management

The IG noted this concern in the March. 2012 Semi-Annual Report to Congress and
Management previously responded to it in detail in the May 17, 2012 Management
Response Letter.

Management agrees with the OIO on the importance of updating the Bank ' s Information
Technology. The Bank appreciated and agreed with most of the IO ' s recommendations in
their Audit ofInforrnation Technology Support for Export-Import Bank' s Mission, as
first described in the Bank's Management Response letter dated January lOth, 2011 and
further detailed in the Management Update Letter to the 010 of September 18th, 2012.

For the first time in recent history, Congress has given Exim the investment resources
necessary to begin modernizing its IT systems. The Bank is about to award contracts to
update our financial management system, which will significantly improve the efficiency
of the Bank's IT systems. Management expects that work on this contract will begin in
the next six months.

The Bank's Total Enterprise Modernization (TEM) initiative has received separate
funding and is prioritizing, selecting, and implementing projects to guide the Bank
towards becoming a modem and flexible institution that is able to adapt its IT systems
and business processes as the environment around it changes. The September 18th , 2012
Management Update Letter also provided a detailed discussion of the progress made
towards TEM's objectives. Management expects several initiatives to go into full
                                                                                         2
production this fiscal year such as the Participant Hub, the automated Working Capital
Delegated Authority, and the Smart-Form project and related transaction applications.


    3. Strategic and performance planning

The IG noted this concern in the March, 2012 Semi-Annual Report to Congress and
Management previously responded to it in the May 1 7, 2012 Management Response
Letter.

Ex-1m Bank developed and filed an Annual Performance Plan and report in April 2012,
as noted in our September 28 th , 2012 Management Response to the OIG's report on the
Performance Metrics for Operational Efficiency. The Bank's General Counsel
determined that it is compliant with the Bank's requirements under GPRA. The Bank is
currently preparing its FY13 Annual Performance Plan for submission in February, 2013.


    4. Risk management

Management welcomes the OIG's focus on risk management and appreciates the helpful
input provided in their report on loss reserve policies and risk mitigation practices.

Regularly as part of the annual budgeting and re-estimate process, Ex-1m Bank reviews
its reserves to determine if any increases or decreases are necessary as a result of changes
in the portfolio that have occurred over the past year. As of September, 20 I 2 the Bank
has adopted a new set of credit loss factors , incorporating qualitative loss factors. As the
OIG noted in their Transmittal Letter that accompanies the current Semi-Annual Report
to Congress, this resulted in an upward revision to loss reserve allocation of
approximately $570 million. The anticipated increase in loss reserves represented 0.5 %
of the Bank's total portfolio at the end ofFY12. Between FYI I and FYI2, the Bank 's
total reserves increased from $4,069 million to $4,596 million.

The Bank's new credit loss factors model was thoroughly evaluated by OMB before
being approved on a pilot basis in September, 2012.

The model has also been subject to further external evaluation, including:

   •   In May 2012, Ex-1m Bank contracted KPMG to review, assess, and evaluate the
       Bank's qualitative factors model and to provide input towards its improvement.

   •   The OIG's September, 2012 Report on Portfolio Risk and Reserve Allocation
       Policies provided inputs and recommendations on the construction of the loss
       model , based on a review of best practices. The Bank's Management Response
                                                                                           3
                                    t
        Letter, dated September 18 \ 2012, noted that the Bank had fully implemented 3
        of the OIG' s 7 recommendations and has begun implementation on another one.

    •   The Bank's external auditors, Deloite & Touche, recently completed the routine
        audit report of Ex-1m Bank Bank's FYI2 Financial Statements. This audit attested
        to the soundness of the Bank' s financial reporting, including the Bank's sound
        implementation of its loss reserves re-estimate in accordance with Bank' s new
        policy. The auditors delivered an unqualified opinion, as they have for more than
        20 years.

Management also notes that the Bank's credit performance track record is exemplary:

    •   Default rate: According to the Bank's September 30 th , 2012 Default Rate Report,
        the Bank's current default rate is 0.287%. This is well below the 2% default rate
        benchmark that Congress established for Ex-Im Bank in the 2012 Reauthorization
        Act, and is much lower than most private financial institutions.

    •   Budget Cost Levels (BCLs): BCLs are a risk rating the Bank assigns to each of its
        transactions upon underwriting and updates regularly, based on analysis of the
        current credit quality of the of borrower. The average BCL for all new
        authorizations fell from 3.77 in FY08 to 3.23 in FYI2. The average BCL for the
        Bank' s entire portfolio has fallen from 4.25 to 3.66. A BCL of 4 or lower
        corresponds to an investment grade credit.

This track record reflects the quality of the Bank's portfolio risk modeling and reserving
approach and its broader risk management system . The primary elements ofEx-Im
Bank' s risk management are underwriting, monitoring, restructuring and recovery.
Additionally the Bank's risk management program includes reserving practices, portfolio
management, as well as oversight and governance. Management notes that OIG's report
of September 28, 2012 reviewed only the last three components and not the entirety of
the Bank 's risk management system.

The Bank continually reviews and improves its risk management systems. The Bank is
currently participating in three reviews related to the evaluation and strengthening of risk
management:

   •    GAO Risk Report: GAO began a comprehensive study of Ex-Tm's Risk
        Management Systems on July, 26 2012. They will submit their report to Congress
        by March 30 n" 2013.

   •    Audit Committee evaluations: The Bank' s Audit Committee has engaged KPMG
        to conduct two studies: one on risk factors for the Bank and a second on best
        practices in asset management. Both will be completed in the coming months.
                                                                                           4
Management appreciated the OIG's Management Letter on Portfolio Risk Mitigation
Techniques. The Bank is currently implementing the recommendation that the Bank
should conduct comprehensive assessments of agency wide-risk factors and portfolio
management techniques, as noted above.

The management letter also recommended that the Bank consider adopting five risk
management strategies: Portfolio discipline (portfolio concentration sub-limits), asset
sales, reinsurance, credit derivatives, and asset securitization.

Management notes that several of these recommendations-regarding asset sales, credit
derivatives and asset securitization- are contrary to verbal instructions the Bank has
previously received from OMB. Ex-1m requested OMB approval to develop various
hedging strategies, including securitization and currency hedging but did not receive
approval. However, Management understands the value these initiatives add to risk
management for some other public or private corporations and will take these
recommendations to OMB to explore their willingness to consider them in the future
similar to how we did in the past.


    5. Customer service

The IG noted this concern in the March, 2012 Semi-Annual Report to Congress and
Management previously responded to it in the May 17, 2012 Management Response
Letter.

Management appreciated the work done by the Office of the Inspector General in
FY2012 to initiate a customer survey and welcomes their main findings- that 88% of
participants responded that they are satisfied with Ex-1m Bank's products and services
and that the Bank's mean promoter score of 47% compares very favorably with a mean
score in the private financial sector of 24%.

Ex-1m is technically not subject to the Executive Order # 13571. However, the Bank is
committed to monitoring and improving customer service. In August, 2012, we hired a
Vice President of Customer Experience who is at work on developing a voice of the
customer strategy and other initiatives.

Ex-1m's attention to customer experience and particularly to improving cycle times over
last three years has been beneficial. Between FY2009 and FY2012, Ex-1m Bank saw a
20% increase in new authOlizations (excluding renewals), while achieving a 50%
decrease in the number of days it takes to reach a decision- going from an average of32
days in FY2009 to an average of IS days in FY20 12. As well, our FY2012 measurements
show that the time to process long-term deals has dropped by more than 60%, from an

                                                                                          5
average ofl63 days in FY09 to an average of60 days in FY2012. In FY2012, 90% of all
bank transactions were processed within 30 days and 98% were processed within 100
days.

Management believes that the high level of satisfaction observed in the OIG's Customer
Service Survey results in part from thi s successful response to prior customer concerns.


    6. Credit undenvriting and due diligence practices

This pOint appeared in the Inspector General's Semi-Annual Report to Congress in
March, 2012. We have addressed this comment in our previous management response
dated May 17th 2012.

As required in the Ex-1m Bank Reauthorization Act of2012, the Bank is reviewing and
updating due diligence standards for lenders and participants and Know Your Customer
requirements for delegated lenders. This review will be complete by the end of calendar
year 2012.


    7. Corporate governance, business processes, and internal control policies and
       practices.

This point appeared in the Inspector General 's Semi-Annual Report to Congress in
March, 2012. We have addressed this comment in detail in our previous management
response dated May 17'h 2012.

Management agrees that it should review and continue to monitor the adequacy of its
policies and practices as regards corporate governance, business processes, and internal
controls to ensure that policies are clear and formalized and appreciates the OrG's
commitment to reviewing and commenting on areas for review and improvement in the
course of its activities. Management notes that the Bank's external auditors, Deloite &
Touche, recently completed an audit of the Bank's FYI2 Financial Statements attesting
to the soundness ofthe Bank's financial reporting. The auditors delivered an unqualified
opinion, as they have for more than 20 years.

Management appreciated the OIG's recent Short-Term Insurance Audit and provided
details on how the Bank is implementing several of its recommendations in the
Management Response Letter dated September 18 th , 2012.


   8. Renewable energy products and clean energy export opportunities.

                                                                                           6
The IG noted this concern in the March, 2012 Semi-Annual Report to Congress and
Management previously responded 10 it in the May 17, 2012 Management Re;ponse
Letter.

Management has already responded to the recommendations of the July 2010 GAO report
on Ex-1m Bank's Environmentally Beneficial Exports. Management continues to refine
its business in the renewables and clean energy exports area. On September 28 t \ 2012 the
Bank submitted to Congress a Business Plan which included projections for the Bank's
renewable energy exports over the FYI2-FYI4 period. Ex-1m will track its performance
against this plan and continue to evaluate if other resources would be additive to the
Bank's work in this sector.


    9. Small business participation.

The IG noted this concern in the March, 2012 Semi-Annual Report to Congress and
Management previously responded to it in the May 17, 2012 Management Response
Letter.

Management agrees with the ongoing importance of performance in this aspect of Ex-
1m's business. The Small Business Group has invested considerable effort and resources
to build its platform - encompassing several new field offices, changes to products,
processes, and deployment of staff. On September 28 th , 2012 the Bank submitted to
Congress a Business Plan which included projections for the Bank's small business
exports over the FYI2-FYI4 period. Ex-1m will track its performance against this plan
and continue to evaluate if other resources would be additive to the Bank's work in this
sector.

Thank you once again for the orG ' s efforts to improve Ex-1m Bank's policies and
procedures and to ensure that Ex-1m funds are not subject to waste, fraud , or abuse. The
Bank appreciates your hard work and your input. We look forward to continuing to work
closely with the Office of the Inspector General.

                                     Sincerely,

                                       IhA~         f.
                                     l.i~ ~.' Albright, CFA
                                     Chief Operating Officer & Executive Vice President
                                     Export-Import Bank of the United States


cc: Fred P. Hochberg, Chairman and President

                                                                                        7
SEMIANNUAL
REPORT TO CONGRESS
APRIL 1, 2012 TO SEPTEMBER 30, 2012
EXPORT-IMPORT BANK OF THE UNITED STATES (Ex-Im Bank) is the official export credit agency of
the United States. Ex-Im Bank supports the financing of U.S. goods and services in international markets,
turning export opportunities into actual sales that help U.S. companies of all sizes to create and maintain
jobs in the United States.


   Ex-Im Bank assumes the credit and country risks that the private sector is unable or unwilling to
   accept. Ex-Im Bank also helps U.S. exporters remain competitive by countering the export financing
   provided by foreign governments on behalf of foreign companies. More than 80 percent of Ex-Im
   Bank’s transactions have been made available for the direct benefit of U.S. small businesses in
   recent years.


   More information about Ex-Im Bank is at www.exim.gov.




THE OFFICE OF INSPECTOR GENERAL (OIG), an independent office within Ex-Im Bank, was statutorily
created in 2002 and organized in 2007. The mission of Ex-Im Bank OIG is to conduct and supervise audits,
investigations, inspections and evaluations related to agency programs and operations; provide leadership
and coordination as well as recommend policies that will promote economy, efficiency, and effectiveness
in such programs and operations; and prevent and detect fraud, waste, abuse and mismanagement.


   The OIG is dedicated to acting as an agent of positive change to help Ex-Im Bank improve its efficiency
   and effectiveness. It keeps Ex-Im Bank’s Chairman and President and Congress fully informed about
   problems and deficiencies along with any positive developments relating to Ex-Im Bank administration
   and operations.


   More information about the OIG including reports of audits and evaluations is at www.exim.gov/oig.


   Information about inspectors general in the U.S. government is at www.ignet.gov.
Contents

	 3	 From the Inspector General

	5	Highlights

	 9	 Management initiatives

	 9	 Council of Inspectors General on Integrity and Efficiency

	 9	 Review of legislation and regulations

	 11	 Ex-Im Bank management challenges

	 17	 Office of Audits

	18	 Reports

	 21	 Ongoing audits

	 23	 Office of Inspections and Evaluations

	24	 Reports

	 31	 Office of Investigations

	32	 Investigations

	33	 Results

	 37	 Other results

	39	 Hotline

	41	 Appendixes

	 41	 A: Recommendations from prior reporting periods

	 43	 B: Peer review reporting

	 45	 C: Abbreviations and acronyms

	 47	 D: Inspector General Act reporting requirements




                                                                 Office of Inspector General | Export-Import Bank of the United States   1
From the Inspector General
We are pleased to report our last six months’ work, which enhances the viability and soundness of Export-Import
Bank (Ex-Im Bank) as an institution and lender of last resort.


Our Office of Inspections and Evaluations completed an evaluation of Ex-Im Bank’s loss reserve allocation
policies and portfolio risk mitigation practices. Ex-Im Bank’s significant asset growth in the past several years,
changes in the composition of its product portfolio, the challenging economy, and Congressional interest led us
to start this evaluation. In conducting this report, we benchmarked Ex-Im Bank’s policies with private-industry
best practices, other federal credit agencies, and U.S. and international regulatory guidance for systemically-
important banking institutions. We are pleased to report that Ex-Im Bank has taken steps to address the recom-
mendations issued in the Portfolio Risk and Lost Reserve Allocation Policies report. At the end of the reporting
period, Ex-Im Bank had developed qualitative factors approved by the Office of Management and Budget which
resulted in a preliminary upward revision to loss reserve allocation of approximately $570 million. In developing
these qualitative factors, Ex-Im Bank hired an outside consultant, and was working on the development of
portfolio stress testing techniques. In the next reporting period the OIG will review and verify the steps taken
by management.


To help Ex-Im Bank improve its operational performance and meet customer needs, the Office of Inspector
General issued the results of a customer-experience survey we conducted. The survey targeted more than
1,900 Ex-Im Bank customers and users and found that Ex-Im Bank needs to improve its information technology
platform and transaction processing times. These improvements would lead to better customer satisfaction and
improved operational performance efficiency.


We issued the results of an audit on Ex-Im Bank’s Short-Term Insurance Program. The audit found that the
program has inadequate written policies and procedures and the existing documentation did not identify all risks,
including fraud risk factors, and had not consistently identified procedures to address identified risks. Ex-Im Bank
had inconsistently applied Character, Reputation, and Transaction Integrity due diligence processes during the
underwriting and approvals of the short-term insurance transactions. Character, Reputation, and Transaction
Integrity due diligence identifies potential risks related to the trustworthiness of participants, the possibility of neg-
ative publicity from Ex-Im Bank’s involvement, and the possibility that the transaction is not legitimate or involves
fraud, corruption, or other suspect practices.


These accomplishments are not possible without the hard work, professionalism, and dedication of our
excellent staff.


Lastly, I am pleased that Rebecca Sharek joined us as our Assistant Inspector General for Audits. Ms. Sharek has
more than 17 years’ audit experience including more than 13 years at NASA OIG.




Osvaldo L. Gratacós




                                                                                     Office of Inspector General | Export-Import Bank of the United States   3
Highlights
The Office of Audits completed two audits during the six months ending September 30, 2012:


1  Export-Import Bank’s Short-Term Insurance Program
   The audit found that (1) Short-Term Insurance Program procedures were not adequately documented or
   consistently followed; (2) duties were not always segregated appropriately; and (3) system calculations were
   not always accurate. The auditors made ten recommendations for corrective action. Management concurred
   with six of the ten recommendations.


2  Export-Import Bank’s Purchase Card Program
   We examined 845 purchases, totaling $715,595, made by 13 of Ex-Im Bank’s 33 cardholders in fiscal years 2010
   and 2011 and determined that Ex-Im Bank lacks sufficient controls over the purchase card program. Although
   Ex-Im Bank’s policies and procedures were designed to detect and prevent unauthorized and potentially fraud-
   ulent transactions, and we found no evidence of fraudulent purchases, personnel did not consistently follow
   procedures. Participants did not always maintain receipts or review and reconcile records in a timely manner.
   These conditions occurred due to a lack of knowledge, effective training, and good recordkeeping.


Office of Audits has two audits in progress:
   1. Federal Information Security Management Act: Fiscal Year 2012
   2. Export-Import Bank’s Financial Statements for Fiscal Year 2012
                                                                                                                        Some highlights
The Office of Inspections and Evaluations completed three principal assignments:                                        •    Short-Term Insurance Program
1  An evaluation of Ex-Im Bank’s portfolio risk and loss reserve allocation policies                                    •    Purchase Card Program
   Our evaluation found that Ex-Im Bank should strengthen its loss reserve methodology and forecasting                  •    Portfolio risk and loss reserve
   model. Although Ex-Im Bank manages its credit risks through loss reserve provisioning based on risk ratings               allocation policies
   of individual transactions, it lacked a systematic approach to identify, measure, mitigate, and reserve for its      •    Credit portfolio risk
   portfolio risk (the sum credit risk of all Ex-Im Bank obligations) based on both quantitative and qualitative or          mitigation options
   “environmental” risk factors. Also, Ex-Im Bank does not perform systematic portfolio stress testing. At the          •    Customer-experience survey
   end of the reporting period, Ex-Im Bank has taken steps to address the recommendations issued in the Port-
   folio Risk and Lost Reserve Allocation Policies report including developing qualitative factors approved by the
   Office of Management and Budget which resulted in a preliminary upward revision to loss reserve allocation
   of approximately $570 million. In developing these qualitative factors, Ex-Im Bank hired an outside consul-
   tant, and was working on the development of portfolio stress testing techniques.


2  A management letter outlining credit portfolio risk mitigation options
   The Office of Inspector General’s Management Letter on portfolio risk mitigation techniques complements
   the above report on loss reserve allocation policies in two respects. We believe Ex-Im Bank would benefit
   from a comprehensive assessment of both agency-wide risk factors and portfolio risk mitigation techniques.
   The assessment would inform the design of a robust risk-management framework that is critical to Ex-Im Bank’s
   long-term ability to manage its growing portfolio.




                                                                               Office of Inspector General | Export-Import Bank of the United States           5
                 Highlights


                                    3  A customer-experience survey and summary report
                                        The survey helps validate the profile of Ex-Im Bank’s customer base. Also, it confirms the perceived relevance
                                        of Ex-Im Bank, with 88 percent of all respondents stating they are satisfied with Ex-Im Bank’s products and
                                        services. And the survey helps confirm that improvements in Ex-Im Bank’s transaction processing times
                                        and information technology platform will increase customer satisfaction more than improvements made in
                                        any other areas. These improvements are consistent with Ex-Im Bank’s 2010-2015 Strategic Plan.


                                    The Office of Investigations accomplished these actions:
                                        •    Seven criminal informations and indictments against subjects of ongoing investigations.
                                        •    Two arrest warrants and three arrests based on warrants obtained by Ex-Im Bank OIG Special Agents.
                                        •    Three plea agreements entered in court by subjects pursuant to ongoing investigative matters.
                                        •    104 reports of investigative information provided to Ex-Im Bank Office of General Counsel concerning
                                             potential funds at risk to support enhanced due diligence efforts in approving, processing, and monitoring
                                             export credit loan guarantees and insurance policies.
                                        •    Six investigative matters were referred to the Department of Justice for prosecutive decision.




6   Office of Inspector General | Export-Import Bank of the United States
Office of Inspector General management initiatives
The Office of Inspector General (OIG) participated in meetings with the Berne Union, the worldwide organization
of export credit, insurance, and investment agencies. These meetings allowed the OIG to discuss areas of interest
in the export credit field and to benchmark Ex-Im Bank’s practices with other export credit agencies.


Since the majority of OIG investigations and inspections are focused on international transactions, the OIG seeks
to partner with international organizations to exchange ideas and information on how to work together in pre-
venting and investigating fraud. The OIG works with these entities to find ways to collaborate in identifying and
preventing fraud.




Council of Inspectors General on Integrity and Efficiency
The OIG is participating in the Professional Development Committee of the Council of Inspectors General on
Integrity and Efficiency (CIGIE). The committee provides educational opportunities, supports the development of
personnel, provides opportunities to improve training and the development of OIG staff, and establishes training
to meet continuing-education requirements. The Office of Inspections and Evaluations is participating in the
CIGIE Inspection and Evaluation Committee, which leads the development of protocols for reviewing manage-
ment issues that cut across departments and agencies, promotes the use of advanced program-evaluation tech-
niques, and fosters awareness of evaluation and inspection practices in OIGs.




Review of legislation and regulations
Pursuant to section 4(a)(2) of the Inspector General (IG) Act of 1978, as amended, the OIG reviews proposed
and existing legislation and regulations related to Ex-Im Bank’s programs and operations.


During this period the U.S. Senate passed S.300 “Government Charge Card Abuse Prevention Act of 2012.”
The bill includes a requirement for OIGs to report violations of purchase card and convenience check programs
to the Office of Management and Budget (OMB), and directs OIGs to conduct “periodic assessments” of the
programs. This bill became public law (P.L. 112-194) on October 5. As part of our oversight of Ex-Im Bank
programs, the OIG conducted a purchase card program audit for Ex-Im Bank (included in this report).


Also, H.R.3289 “Whistleblower Protection Enhancement Act of 2011” passed the House of Representatives on
September 28. Section 120 of this Act will amend the IG Act of 1978, as amended, to include the creation of a
Whistleblower Protection Ombudsman within the OIG. This bill has not become public law.




                                                                                Office of Inspector General | Export-Import Bank of the United States   9
Ex-Im Bank management challenges
Beginning in February 2012, under the Government Performance and Results Act (GPRA) Modernization Act of
2010, Ex-Im Bank must prepare a performance plan to establish performance goals and indicators, describe how
the goals will be achieved and measured, and describe major management challenges and plans to address such
challenges. The law defines “major management challenges” as “programs or management functions … that have
greater vulnerability to waste, fraud, abuse, and mismanagement (such as issues identified by an Inspector Gen-
eral) where failure to perform well could seriously affect the ability of an agency to achieve its mission or goals.”


The OIG has identified several major management challenges. Addressing these challenges would provide Ex-Im
Bank with a more efficient capability to meet its mission of creating and maintaining jobs in the U.S. through
export financing. We will review and update these challenges semiannually.


1  HUMAN CAPITAL. The OIG has noted Ex-Im Bank’s low number of underwriters, asset managers, and
compliance personnel relative to the increasing size of its asset exposure. During the past five years Ex-Im Bank
has witnessed significant asset growth to more than $100 billion as of Fiscal Year (FY) 2012, with more than $32
billion in authorizations in FY 2011 alone. Ex-Im Bank has achieved this increase with basically the same staffing
level for the past decade. This increase in workload undertaken by the same level of staffing might contribute to
diminished customer service, oversight, and due diligence. To better serve its customers and provide effective
underwriting and oversight, Ex-Im Bank should, given recent increased funding, reassess the assignment of
resources, and review and adjust staffing levels and requisite in-house expertise to reflect the record growth in
authorizations and asset portfolio management.


2  INFORMATION TECHNOLOGY (IT) MANAGEMENT. Ex-Im Bank uses an ineffective, inefficient, and
fragmented IT platform and infrastructure of several systems and databases. These systems and databases do not
effectively and accurately interface — compromising data integrity, producing duplicative information, and creating
unreliable files. These systems make data mining burdensome and time-consuming. This ineffective IT platform
compromises the ability of Ex-Im Bank to provide timely service, effectively manage and track its programs,
measure progress, identify transaction patterns, and increase productivity.


During the previous period an outside contractor under the supervision of the OIG issued the results of an audit
of the IT function at Ex-Im Bank, confirming our observations (www.exim.gov/oig/documents/IT%20Support%
20OIG-AR-12-04%20508.pdf). The audit found that while the business operations at Ex-Im Bank are functioning
and transactions are being processed, the IT systems are not supporting these operations efficiently and effective-
ly. Overall, Ex-Im Bank IT systems and databases do not always capture and manage all necessary data for business
needs and antiquated IT applications cause workflow inefficiencies. Because not all applications for Ex-Im Bank
products are electronically accepted and/or processed in a centralized database, and because Ex-Im Bank’s IT
systems are not integrated, key data has to be entered manually into different Ex-Im Bank systems and transaction
records hard copied to complete task(s).


While the audit identified 11 recommendations, the overall recommendation is for Ex-Im Bank business operations
and IT teams to develop an integrated IT application system to ensure that business is conducted effectively and
efficiently. In response, Ex-Im Bank management has kicked off the first in a series of processing-system projects




                                                                                 Office of Inspector General | Export-Import Bank of the United States   11
                        Ex-Im Bank management challenges


                                          that start with a detailed review of business requirements and strategic direction with business owners. The plans
                                          then establish a business stakeholders steering committee and a pool of business users who will test and review
                                          any application development. We look forward to working with management as it implements these recommen-
                                          dations and develops an integrated and effective IT platform.


                                          3  STRATEGIC AND PERFORMANCE PLANNING. Under the GPRA Modernization Act of 2010, Ex-Im Bank
                                          is required to produce a strategic plan, an annual performance plan, and an annual performance report by Feb-
                                          ruary 2013. Although Ex-Im Bank issued a five-year strategic plan in 2010, it has not developed a comprehensive
                                          annual performance plan in accordance with OMB guidance to quantify the effect and success of its program
                                          and operations properly. An effective strategic plan describes goals the agency aims to achieve, what actions the
                                          agency will take to realize those goals, and how the agency will deal with challenges and risks that may hinder
                                          achieving results. An APP offers a framework to measure the costs, benefits, results, and outcomes of its prod-
     Lessons learned from the             ucts, programs and initiatives.
     crisis include the inadequacy
     of overreliance on historical,       4  RISK MANAGEMENT. Almost four years after the beginning of the financial crisis, the world is undergoing
     quantitative market data and         the aftershocks. Volatility in global markets is more pronounced and the European Union debt crisis continues to
     the need for robust scenario         add uncertainty to the market. Given Ex-Im Bank’s position as a “lender of last resort,” its authorizations have grown
     analysis and stress testing          in record numbers to support U.S. exports as private lending has contracted or plateaued. Ex-Im Bank’s significant
                                          asset growth during the past five years, however, presents a continual risk management challenge: How to allocate
                                          reserves to cover potential losses in its credit portfolio so that taxpayers are not affected by an unforeseen crisis.


                                          Lessons learned from the crisis include the inadequacy of overreliance on historical, quantitative market data and
                                          the need for more robust scenario analysis and stress testing. Different theories have emerged to supplement
                                          traditional risk-management models. They encourage supplementing quantitative data with contextual qualita-
                                          tive data and the testing of worst-case scenarios to determine whether institutions have the requisite reserves to
                                          withstand exogenous shocks.


                                          Given the importance of risk management for Ex-Im Bank, during this period the Office of Inspections and Eval-
                                          uations completed an evaluation of Ex-Im Bank’s loss reserve policies and risk mitigation practices. (Please refer
                                          to the Office of Inspections and Evaluations section on page 23.) The need for a comprehensive review of these
                                          policies and practices is driven largely by Ex-Im Bank’s significant asset growth, the economy, and changes in the
                                          composition of Ex-Im Bank’s product portfolio.


                                          5  CUSTOMER SERVICE. Ex-Im Bank has not conducted customer satisfaction surveys on a regular basis.
                                          Customer surveys provide valuable insight into customer priorities, perceptions of performance, areas for im-
                                          provement, and other export credit agencies’ (ECA) best practices. For example, some Ex-Im Bank participants
                                          have complained about approval times and processes. Reducing the time it takes to approve transactions would
                                          allow U.S. exporters to develop better relationships with clients and customers, encourage borrowers and sellers
                                          to use Ex-Im Bank, and improve the services Ex-Im Bank provides. President Obama’s April 27, 2011, Executive
                                          Order (13571) highlighted the importance of federal agency customer service, instructing Federal agencies
                                          (including independent agencies) to develop a customer service plan to streamline service delivery and improve
                                          customer experience.




12        Office of Inspector General | Export-Import Bank of the United States
To address these issues, during the previous reporting period the Office of Inspections and Evaluations issued an
evaluation report on Ex-Im Bank’s performance metrics for operational efficiency and worked with Ex-Im Bank
management to develop a customer survey. During this period, the OIG contracted a company to conduct a
survey of Ex-Im Bank customers and users. (Please see the Office of Inspection and Evaluation section, page 23.)
We recommend that Ex-Im Bank routinely conduct and utilize customer surveys to validate customer priorities
and bank performance.


6  CREDIT UNDERWRITING AND DUE DILIGENCE PRACTICES. Ex-Im Bank uses a decentralized under-
writing process and a risk-based due diligence model. Given the lessons learned from incidences of fraud in the
Medium-Term program, the surge in the number of transactions, and insufficient credit information and history
from borrowers in some regions, it is vital that Ex-Im Bank enhance credit underwriting and due diligence practices
in order to identify and prevent fraud. (Our report, Evaluation Report Relating to Medium-Term Export Credit
Program, is at www.exim.gov/oig/loader.cfm?csModule=security/getfile&pageid=13579).


In July 2010, Ex-Im Bank’s Board of Directors issued an Individual Delegated Authority (IDA) resolution authoriz-
ing certain individual Ex-Im Bank officers to approve loans, guarantees, and insurance up to $10 million. (Before
the IDA, Ex-Im Bank approved these transactions through a credit committee.) The IDA decentralized underwrit-
ing and decision-making authority. However, absent strong policies and procedures, decentralized underwriting
and due diligence practices may cause inconsistent criteria to be applied in different programs.


Ex-Im Bank needs to develop effective policies, procedures, and compliance practices to ensure the IDA works
effectively. These policies should address:
   A Uniform credit and underwriting standards.
   B Frequent use of security interest and sporadic inspections in order to better mitigate risks in programs and
     regions where defaults and fraud have been high.
   C Use of financial statements in programs in which defaults and fraud are high, in particular, independently
     audited financial statements in regions where Ex-Im Bank has limited or unfavorable experience.


During this period, the OIG began audits of the Short-Term Insurance Program and the Direct Loan Program
to address some of these concerns.


Ex-Im Bank should require lender partners and participants to conduct industry-standard due diligence on gov-
ernment guarantees and insurance transactions. One of the patterns our office has observed is the lack of due
diligence efforts by lenders, specifically the ones with a history of defaulted transactions. Even though Ex-Im Bank
expects such efforts from participating lenders, due diligence is not required in all lender agreements.


The OIG has anecdotal evidence of institutions’ loan officers expressing that the lender would not devote re-
sources on due diligence efforts when there is a government guarantee and that such efforts are not required by
Ex-Im Bank. Although the OIG cannot state that this is a behavior demonstrated by all lenders, we can state that
this “moral hazard” issue is prevalent in fraud cases involving multiple transactions. Effective implementation of
“Know Your Customer” practices by lenders could help minimize or prevent fraudulent activity.




                                                                                Office of Inspector General | Export-Import Bank of the United States   13
                  Ex-Im Bank management challenges


                                     7  CORPORATE GOVERNANCE, BUSINESS PROCESSES, AND INTERNAL CONTROL POLICIES AND
                                     PRACTICES. One of the consistent observations arising out of audits, evaluations, and investigations conducted
                                     by the OIG are the weaknesses in governance and internal controls in business operations. Internal policies pro-
                                     viding clear guidance to staff and establishing clear roles and authorities are not prevalent at Ex-Im Bank. These
                                     areas need to be addressed as part of creating a better corporate governance culture.


                                     Each OIG audit, evaluation, and inspection will review applicable governance and internal controls and make
                                     recommendations to strengthen such controls. The audits of the Short-Term Insurance Program showed business
                                     processes and governance observation resulting in recommendations such as segregating duties between staff
                                     performing the underwriting process and the official authorizing all new policies. (Please see the Office of Audits
                                     section, page 17.)


                                     8  RENEWABLE ENERGY PRODUCTS AND CLEAN ENERGY EXPORT OPPORTUNITIES. Ex-Im Bank’s
                                     charter contains a renewable-energy mandate of ten percent of all authorizations every year. Although its financ-
                                     ing for environmentally beneficial exports has increased significantly during the last two years, Ex-Im Bank has not
                                     met this mandate, mainly because the renewable energy exports have not reached significant numbers (compared
                                     with the size of Ex-Im Bank’s portfolio). Nonetheless, Ex-Im Bank has taken a proactive approach in developing re-
                                     newable energy specific products such as Solar Express, and in reaching out to local wind and solar manufacturers.


                                     In July 2010, the General Accountability Office (GAO) issued a report on Ex-Im Bank’s Environmentally Beneficial
                                     Exports. It found that although some of the challenges to reach the target may be outside its control, Ex-Im Bank
                                     should develop a strategy for meeting the target that is integrated into a broader strategy for Ex-Im Bank. It spe-
                                     cifically recommended that Ex-Im Bank improve the tracking, reporting, and planning of its exports strategy to
                                     determine the resources required to meet its target. We continue to monitor Ex-Im Bank’s progress in this area.


                                     9 SMALL BUSINESS PARTICIPATION. Since the 1980s, Congress and the Executive Branch have prioritized
                                     the expansion of exports by small businesses. Since 2002, Ex-Im Bank’s charter has imposed a 20 percent small
                                     business participation requirement of all aggregate authorizations every fiscal year. Ex-Im Bank has exceeded this
                                     mandate in the past years. However, in FYs 2011 and 2012 Ex-Im Bank has not reached the 20 percent target.
                                     Although it reached a record of $6 billion and $6.1 billion in small business export financing in FYs 2011 and
                                     2012, respectively, these amounts fell short of the required 20 percent of all $32 billion in financing.


                                     GAO has reported on several aspects of Ex-Im Bank’s financing for small business exports. Recently GAO report-
                                     ed on the performance standards that Ex-Im Bank established for assessing its small business financing efforts.
                                     GAO found that Ex-Im Bank had developed performance standards in most but not all the areas specified by
                                     Congress, ranging from providing excellent customer service to increasing outreach. They also found that some
                                     measures for monitoring progress against the standards lacked targets and time frames, and that Ex-Im Bank
                                     was just beginning to compile and use the small business information it was collecting to improve operations.
                                     We urge management to finalize its small business performance plan and metrics to improve its program
                                     operations. We continue to monitor progress.




14   Office of Inspector General | Export-Import Bank of the United States
Office of Audits
                         Office of Audits


                                          The Office of Audits (OA) conducts and oversees independent and objective audits relating to Ex-Im Bank pro-
                                          grams to improve operations. All OIG audits are performed in accordance with government auditing standards
                                          promulgated by the Comptroller General. OA refers irregularities and other suspicious conduct to the Office of
                                          Investigations for investigative consideration.


                                          OA completed two audits during the six months ending September 30, 2012:
                                              1 Export-Import Bank’s Short-Term Insurance Program
                                              2 Export-Import Bank’s Purchase Card Program


                                          OA had two audits in process:
                                              1 Federal Information Security Management Act: FY 2012 Audit
                                              2 Audit of Export-Import Bank’s Financial Statements for FY 2012
     Ex-Im Bank’s short-term
     insurance authorizations have
     increased due to the financial       Reports
     crisis. In four years the hike was   Audit of Export-Import Bank’s Short-Term Insurance Program (OIG-AR-12-05, September 28, 2012)
                                          www.exim.gov/oig/documents/Official%20Final%20Report%20-%20Audit%20of%20ST%20Ins%20Program%
     more than 106 percent, from          20120928.pdf
     $3.3 billion to $6.8 billion
                                          Ex-Im Bank offers export-credit insurance to help U.S. exporters sell their goods overseas by protecting them
                                          against the risk of foreign-buyer or other foreign-debtor default for political or commercial reasons. This allows
                                          U.S. exporters to extend competitive credit terms to their international customers with reduced risk. Short-term
                                          insurance program policies are issued for one year. They cover commercial and political risks; insure open-account
                                          or letter-of-credit sales for a variety of consumer goods, non-durables, spare parts, and bulk agriculture prod-
                                          ucts; and apply to shipments to one or multiple buyers. Ex-Im Bank has two divisions that conduct the short-term
                                          insurance program: the Trade Finance Division and the Trade Credit Insurance Division.


                                          Ex-Im Bank’s short-term insurance authorizations have significantly increased in recent years due to the financial
                                          crisis. Between FYs 2007 and 2011, authorizations increased more than 106 percent, from $3.3 billion in FY 2007
                                          to $6.8 billion in FY 2011. The volume of short-term insurance claims has also increased. Claims rose 42 percent,
                                          from 200 claims in FY 2010 to 284 claims in FY 2011.1


                                          An independent public accountant (IPA) under a contract issued by the OIG completed an audit of Ex-Im Bank’s
                                          short-term insurance program. The objective was to determine if the program had effective policies and proce-
                                          dures to manage credit risk and losses and to identify and respond to fraud risk during FYs 2010 and 2011. The
                                          audit found that, although procedures exist they are not adequately documented or consistently followed, duties
                                          were not always segregated appropriately, and system calculations were not always accurate. The audit identified
                                          these areas for improvement:
                                              •    INADEQUATE WRITTEN POLICIES AND PROCEDURES. The strength of existing credit risk management
                                                   procedures is a direct result of the long tenure and institutional knowledge of short-term insurance program
                                                   employees. However, the short-term insurance program had not adequately documented its policies and

                                           1 The increase in claims during FY 2011 was isolated to Tax Credit Insurance Division’s portfolio and was a result of several
                                              frauds that involved multiple exporters. These frauds represented about 100 claims.




18        Office of Inspector General | Export-Import Bank of the United States
        procedures. Existing documentation was not comprehensive or complete and in some instances was outdat-
        ed. Program documentation did not identify all risks, including fraud risk factors, and had not consistently
        identified procedures to address identified risks.


   •    INCONSISTENT CHARACTER, REPUTATION, AND TRANSACTION INTEGRITY (CRTI) DUE DILIGENCE.
        The purpose of CRTI due diligence is to identify potential risks related to the trustworthiness of transaction
        participants, the possibility of negative publicity from Ex-Im Bank’s involvement with the transaction, and
        the possibility that the transaction is not legitimate or involves fraud, corruption, or other suspect practices.
        However, short-term insurance program personnel do not always perform proper CRTI due diligence.


   •    INCONSISTENT ADHERENCE TO PROCEDURES. Ex-Im Bank personnel inconsistently apply procedures
        that ensure compliance with program requirements and proper credit risk management.


   •    L ACK OF SEGREGATION OF DUTIES. Ex-Im Bank does not segregate duties for underwriting and
        authorizing new short-term insurance program policies, new Special Buyer Credit Limits, enhanced assign-
        ments, or renewals of high-dollar or high-risk policies. While commercial banks may not always segregate
        these duties either, all Ex-Im Bank transactions are backed by the full faith and credit of the U.S. government,
        and Ex-Im Bank has a duty to safeguard taxpayer resources under its stewardship.


   •    INACCURATE CALCULATION OF EXPORTER SCORE. Ex-Im Online calculations of the exporter score,
        which assist in determining the risk of an exporter for a multi-buyer policy, are not always accurate.


To address these issues, the IPA recommended that Ex-Im Bank:
   •    Document and implement comprehensive policies and procedures for the short-term insurance program. This
        includes implementing enhanced procedures for applications that have elevated business risk or fraud risk.
   •    Require that officials authorizing insurance policies verify that CRTI due diligence was performed and docu-
        mented prior to approving the policy.
   •    Develop and implement a monitoring process for periodically reviewing a sample of credit decisions and
        ensure that the due diligence performed complied with the program’s policies and procedures.
   •    Develop and implement a due diligence procedure checklist that is completed by the official authorizing the
        short-term insurance policy prior to approval.
   •    Require a separation of duties between staff performing the underwriting process and the official authoriz-
        ing all new policies, new Special Buyer Credit Limits of more than $5,000, all enhanced assignments,
        all renewals of more than $1 million, and all high-risk policy renewals.
   •    Implement controls to ensure that exporter score calculations used during underwriting are reliable.


Management concurred with the recommendations regarding written policies and procedures, CRTI due diligence,
and inaccurate calculation of exporter scores and is in the process of implementing corrective actions. Manage-
ment partially concurred or nonconcurred with the recommendations regarding adherence to procedures and
segregation of duties. We believe management’s comments and/or proposed actions to these recommendations




                                                                                     Office of Inspector General | Export-Import Bank of the United States   19
                  Office of Audits


                                     are unresponsive and do not adequately address the concerns that prompted the recommendations. We reaffirm
                                     the basis for both the findings and recommendations and have referred the matter to the Export-Import Bank
                                     Audit FollowUp Official for resolution.


                                     Audit of Export-Import Bank’s Purchase Card Program (OIG-AR-12-06, September 26, 2012)
                                     www.exim.gov/oig/documents/Final-Audit-Report-of-Ex-Im-Bank-Purchase-Card-Program-09-26-12.pdf


                                     Traditionally, purchase cards are at high risk for misuse, fraud, waste, and abuse. In FYs 2010 and 2011,
                                     Ex-Im Bank’s 33 cardholders spent $2.1 million on purchase card transactions. Without sufficient internal controls
                                     over its purchase card program, Ex-Im Bank may not be able to prevent or promptly detect fraudulent purchases
                                     or other improper use of the cards.


                                     We examined 845 purchases, totaling $715,595, made by 13 of Ex-Im Bank’s 33 cardholders in fiscal years 2010
                                     and 2011, and we determined that Ex-Im Bank lacks sufficient controls over its purchase card program. Although
                                     Ex-Im Bank’s policies and procedures were generally designed to detect and prevent unauthorized and poten-
                                     tially fraudulent transactions, and we found no evidence of fraudulent purchases, Ex-Im Bank personnel did not
                                     consistently follow the procedures. Of the 845 purchases reviewed:
                                         •    741 (88 percent) did not have documented prior approval as required by Ex-Im Bank and OMB policy.
                                         •    117 (14 percent) were made using multiple transactions, thereby circumventing single purchase limits.
                                         •    6 (1 percent) involved questionable use of convenience checks that incurred unnecessary fees.


                                     Additionally, purchase card program participants did not always maintain receipts or review and reconcile records
                                     in a timely manner.


                                     These conditions occurred due to a lack of knowledge, effective training, and good recordkeeping. For example,
                                     prior to our audit none of Ex-Im Bank’s cardholders had a current Delegation of Procurement Authority that
                                     informed them of Ex-Im Bank policy and government-wide regulations, authorized them to use a purchase card
                                     within boundaries, and documented their purchase limits. In addition, although 30 of Ex-Im Bank’s 33 cardhold-
                                     ers completed the required General Services Administration training, we could verify only that half the approving
                                     officials had completed such training. Also, Ex-Im Bank does not offer required agency-specific training.


                                     We also noted that Ex-Im Bank had not established clear procedures for ensuring electronic and information
                                     technology purchases are compliant with Section 508 of the Rehabilitation Act.


                                     Ex-Im Bank’s purchase card program coordinator has initiated efforts to improve controls over the program.
                                     However, additional improvements and management attention are needed to further strengthen Ex-Im Bank’s
                                     purchase card program.


                                     To improve controls over the program we recommended that Ex-Im Bank ensure all participants complete
                                     required training and obtain current delegation memos as soon as practicable, develop internal training
                                     emphasizing controls over the weaknesses we observed, revise its purchase card policy to describe clearly the
                                     restrictions on the use of convenience checks, and perform a comprehensive annual review of the program.
                                     Management concurred with our recommendations and is in the process of implementing corrective actions.




20   Office of Inspector General | Export-Import Bank of the United States
Ongoing audits
Audit of Export-Import Bank’s Compliance with the Federal Information Security Manage-
ment Act for FY 2012
The Federal Information Security Management Act requires the OIG or its designee to conduct annual evaluations
of Ex-Im Bank’s information security program and report the results to the Office of Management and Budget.
The OIG contracted with an independent public accountant (IPA) to conduct the audit, which will include an
assessment of Ex-Im Bank’s efforts to address previously reported weaknesses.


Audit work began in June 2012. The OIG anticipates the IPA will respond to the OMB reporting requirements in
November 2012 and issue an audit report in December 2012.


Audit of Export-Import Bank’s Financial Statements for FY 2012
The Chief Financial Officers Act of 1990 requires the OIG or an independent external auditor chosen by the OIG
to audit Ex-Im Bank’s financial statements annually. An IPA working under OIG oversight is auditing Ex-Im Bank’s
FY 2012 financial statements. The IPA is focusing on:
   •    Ex-Im Bank’s processes for allowing for losses and subsidy re-estimate.
   •    Existing and new fraud cases in FY 2012 (if any).
   •    Compliance with legislation reauthorizing Ex-Im Bank.


The audit will also include an assessment of Ex-Im Bank’s efforts to address previously reported weaknesses.


Audit work commenced in July 2012. The OIG anticipates the IPA will issue its opinion on the FY 2012 financial
statements in November 2012.




                                                                                  Office of Inspector General | Export-Import Bank of the United States   21
Office of Inspections
and Evaluations
                  Office of Inspections and Evaluations


                                     The Office of Inspections and Evaluations (OIE) conducts objective and independent inspections and evaluations
                                     of transactions, programs, and operations. The OIE reviews and evaluates projects, transactions, policies and
                                     procedures, and develops recommendations for improving performance. Also, OIE refers irregularities and other
                                     suspicious conduct to the Office of Investigations for consideration.


                                     During the last semiannual period, OIE completed three principal assignments:
                                         1 Evaluation of Ex-Im Bank’s portfolio risk and loss reserve allocation policies.
                                         2 Management letter outlining credit portfolio risk mitigation options.
                                         3 Customer experience survey and summary report.


                                     Our report on Ex-Im Bank’s portfolio risk and loss reserve allocation policies cited several deficiencies in
                                     Ex-Im Bank’s portfolio risk management policies and procedures. The OIE made seven recommendations to
                                     improve Ex-Im Bank’s risk management practices and to bring Ex-Im Bank in line with best practices.


                                     Additionally, our management letter outlines credit portfolio management best practices and discusses several
                                     portfolio risk mitigation techniques used by other ECAs. Our letter builds on OIE’s prior discussions with financial
                                     institutions including other federal agencies, ECAs and multilateral institutions.


                                     OIE’s second evaluation addresses customer satisfaction and complements our earlier report Performance
                                     Metrics for Operational Efficiency. The OIE designed the survey and engaged an independent contractor to
                                     administer the survey and analyze the results. The survey’s objective was to identify customers’ perceptions of
                                     Ex-Im Bank’s services and service delivery, satisfaction drivers, and potential service improvements. Results
                                     of the survey were reported to Ex-Im Bank management during this period.


                                     Finally, the OIE Assistant Inspector General participated in a roundtable discussion on portfolio risk mitigation
                                     practices for ECAs. The roundtable was sponsored by the International Association of Credit Portfolio Managers.




                                     Reports
                                     Report on Portfolio Risk and Loss Reserve Allocation Policies (OIG-INS-12-02, September 27, 2012)
                                     http://exim.gov/oig/documents/Final%20Report%20Complete%20Portfolio%20Risk%20120928.pdf


                                     As an ECA, Ex-Im Bank faces a spectrum of risks including credit, portfolio concentration, foreign currency,
                                     interest rate, and operational risk. During the past five years, Ex-Im Bank has experienced significant portfolio
                                     growth, emerging risk trends, and changes in the composition of its portfolio against the backdrop of a challeng-
                                     ing economic environment.


                                     During the reporting period, the OIG evaluated Ex-Im Bank’s loss reserve allocation and portfolio risk mitigation
                                     policies. Our objective was to determine whether Ex-Im Bank’s loss reserve allocation and portfolio risk mitiga-
                                     tion policies were sufficient to support its long-term growth objectives while providing an adequate cushion for
                                     future credit loses.




24   Office of Inspector General | Export-Import Bank of the United States
Our evaluation found that Ex-Im Bank should strengthen its loss reserve methodology and forecasting model as
well as its overall risk management governance framework.


First, we found that although Ex-Im Bank actively manages its credit risks through loss reserve provisioning based
on risk ratings of individual transactions, it lacks a systematic approach to identify, measure, mitigate, and reserve
for its portfolio risk (the sum credit risk of all Ex-Im Bank obligations) based on both quantitative and qualitative
or “environmental” risk factors. Traditionally, Ex-Im Bank’s loss reserve methodology has been based on quanti-
tative factors (historical data) and has excluded qualitative or “environmental” risk factors to account for portfo-
lio risk, such as the significant levels of concentrations in its portfolio (single obligor and industry concentrations),
and changes in the composition of the portfolio. As a result, Ex-Im Bank’s loss reserve methodology may have
resulted in the systematic under-reserving and under-pricing of the portfolio risk.


Second, although Ex-Im Bank has made substantial progress in refining its loss reserve forecasting model,
including hiring an outside consultant, Ex-Im Bank has not independently validated the model and, due to
deficiencies in Ex-Im Bank’s data reporting systems, the model has not included critical data about the perfor-
mance of restructured and potentially impaired assets. As a result, the reliability of model’s forecasting ability
may have been potentially reduced.


Third, we found that Ex-Im Bank does not perform systematic portfolio stress testing or establish portfolio con-
centration sub-limits. Consequently, Ex-Im Bank may not be able to determine how its portfolio would react to
different market conditions, determine whether loss reserves are adequate under such scenarios, or effectively
manage concentration risk.


We benchmarked Ex-Im Bank’s policies with private-industry best practices, other federal credit agencies, and U.S. and
international regulatory guidance for systemically-important banking institutions. We offered these recommendations:
   1.  Ex-Im Bank should develop a systematic approach to identify, measure, price, and reserve for its
      portfolio risk.
       •    Management Response:
            Ex-Im Bank agreed with the recommendation. Upon the conclusion of the FY 2011 audit, Ex-Im Bank
            evaluated the incorporation of qualitative factors to the components of the overall credit loss factors.
            Starting in December, 2011, Ex-Im Bank implemented a systematic approach on the development of
            Ex-Im’s annual credit loss factors. These credit loss factors incorporate qualitative factors which include
            measuring and reserving for portfolio risk. It is currently under review by Ex-Im Bank’s outside auditors
            and the OMB. As of September 18, 2012, Ex-Im Bank has not received OMB approval on these revised
            credit loss factors. Upon approval, Ex-Im Bank expects to implement these new credit loss factors in
            September 2012 as part of the annual re-estimate process.


   2.  Ex-Im Bank lacks formal policies and procedures for its loss reserve forecasting model which clearly
       define roles and responsibilities and provide for independent validation of the model’s integrity.
       •    Management Response:
            Ex-Im Bank agreed with the recommendation. Upon the conclusion of the FY 2011 audit, Ex-Im began the
            process of designing and implementing a formal governance framework on Ex-Im Bank’s financial models.




                                                                                     Office of Inspector General | Export-Import Bank of the United States   25
                  Office of Inspections and Evaluations


                                                 As part of this process, in May 2012, Ex-Im Bank contracted with KPMG to review, assess, and evaluate
                                                 Ex-Im Bank’s qualitative factors developed this year. KPMG served as external subject matter experts
                                                 providing review, analysis, and feedback. Consistent with the KPMG review, Ex-Im Bank will incorporate
                                                 external validation of future financial models. It is also important to note that the overall model is currently
                                                 under evaluation and review by both Ex-Im Bank’s outside auditors as well as the Office of Management
                                                 and Budget. This review occurs on an annual basis. Ex Im Bank, as part of its efforts to continuously im-
                                                 prove, will build and strengthen the formal governance framework related to the financial models.


                                         3.  Ex-Im Bank does not conduct portfolio stress testing in a systematic manner to assess potential exposures
                                            under challenging economic conditions.
                                            •    Management Response:
                                                 Ex-Im Bank agreed with the recommendation. In the past, Ex-Im Bank has conducted ad-hoc stress tests.
                                                 Ex-Im Bank is in the process of setting up a systematic approach to stress testing to be managed from
                                                 our Portfolio Reporting and Analysis section within the Office of the Chief Financial Officer. Ex-Im Bank
                                                 is currently developing this systematic approach which will be completed in early FY 2013. Under this
                                                 approach, the first stress test will focus on the aircraft portfolio. Ex-Im Bank plans to do both a “top down”
                                                 stress test and a “bottom up” stress test. This approach is consistent with the International Association of
                                                 Credit Portfolio Managers report entitled “Sound Practices in Credit Portfolio Management”. This stress
                                                 test will be conducted in FY 2013.


                                         4.  Ex-Im Bank does not self-impose portfolio concentration sub-limits either by industry, geography,
                                            or asset class as internal guidance to inform management on risk and determine exposure fees in
                                            new transactions.
                                            •    Management Response:
                                                 Ex-Im Bank disagreed with this recommendation to implement soft portfolio concentration sub-limits.
                                                 While Ex-Im Bank understands that the private sector typically employs portfolio limits in its risk
                                                 management function, doing so is inconsistent with the demand-driven nature of Ex-Im’s mandate and
                                                 business. Ex Im Bank’s long time policy has been to meet demand as long as it meets the requirement
                                                 of a reasonable assurance of repayment. Any limits would impede Ex-Im Bank’s ability to meet demand
                                                 as well as adversely impact Ex Im’s competitiveness compared to other officially supported Export Credit
                                                 Agencies. Ex Im believes that the implementation of portfolio concentration limits whether soft or hard
                                                 would result in Ex-Im Bank picking “winners and losers”. Ex-Im Bank does not believe that this role is
                                                 mandated by our governance structure (i.e. Authorization) which was approved by the Congress and
                                                 signed by the President.


                                                 It is also important to note that the September 2012 implementation of the qualitative factors will assist
                                                 Ex-Im Bank in identifying and managing the concentration issues noted in this recommendation.




26   Office of Inspector General | Export-Import Bank of the United States
5.  Ex-Im Bank should create the position of Chief Risk Officer to oversee the design and implementation of
   an agency-wide risk management function.
   •    Management Response:
        Management disagreed with this recommendation. Ex-lm’s current risk management architecture
        encompasses the functions noted above - but includes an important separation of duties between
        policy-setting and credit risk monitoring post closure. The broad functional divisions are as follows: the
        Credit Risk Management Division, under the leadership of an SVP, Ken Tinsley, is responsible for setting
        the broad credit policies for Ex-Im Bank as well as leading the ICRAS sovereign risk rating process and the
        engineering division. This division also reviews certain higher-risk transactions. Once a credit has been
        approved, responsibility for monitoring credit quality and repayment performance shifts to the OCFO,
        under the leadership of Ex-Im Bank’s CFO, David Sena. The OCFO monitors changes in credit quality and
        determines adequate reserve levels.


        The CFO and the SVP of Credit Risk Management serve as Co-Chairs of Ex Im’s Credit Policy Committee.
        This Committee sets broad Credit Policy, underwriting standards, reviews changes in ICRAS ratings and
        the Country Limitation Schedule, and studies “lessons learned” from Ex-Im Bank’s monitoring division
        such that they can inform credit policy.


6.  Ex-Im Bank’s Board of Directors should amend its by-laws to include the oversight of an agency-wide risk
   management function covering the full range of credit, operational, and other risks.
   •    Management Response:
        Management disagreed with this recommendation. The role of the Board of Directors of Ex-Im Bank is
        set forth in the Charter and does not include the recommended oversight function. By way of the Char-
        ter, the President of Ex-Im Bank has broad operational authority for the management of Ex-Im, including
        oversight of all of Ex-Im Bank’s risk management functions - credit, operational, and other risks. The
        by-laws of Ex-Im Bank established an Audit Committee responsible for certain activities relating, among
        other things, to Ex-Im Bank’s financial statements and independent accountants. In this capacity, the
        Audit Committee may undertake certain projects regarding risk management and communicate the find-
        ings therefrom to the Chairman and President of Ex-Im Bank. By way of background, the sections of the
        by-laws relating to the Audit Committee were adopted prior to the appointment of an Inspector General
        for Ex-Im Bank and, as a result, no longer accurately reflect the duties which the Audit Committee should
        have. Having consulted earlier this year with Management, the Audit Committee nonetheless elected to
        keep the current by-laws as they are.


7.  Ex-Im Bank should review current risk metrics and reporting procedures with a view to enhance transpar-
  ency and to better inform key stakeholders.
   •    Management Response:
        Ex-Im Bank does review current risk metrics and reporting procedures. Ex-Im Bank policy is to be
        transparent and open regarding our many procedures and policies. Ex-Im Bank will continue, in the
        future, to review current risk metrics and reporting procedures. For example, Ex-Im Bank develops
        and publishes an annual report which is reviewed and audited by Ex-Im Bank’s external auditors. This
        annual report highlights many of Ex-Im Bank’s current risk metrics and reporting procedures. Addi-




                                                                                Office of Inspector General | Export-Import Bank of the United States   27
                  Office of Inspections and Evaluations


                                              tionally, Ex-Im Bank, through the Audit Committee, will identify portfolio management best practices.
                                              This review, conducted by subject matter experts, is starting in September 2012. Consistent with the
                                              Re-Authorization Act of 2012, Ex-Im Bank has also developed a comprehensive default report which
                                              will be reported quarterly to key stakeholders. The first report is, as of September 18th 2012, currently
                                              under review awaiting clearance by the Office of Management and Budget. Ex-Im Bank expects to
                                              submit this report to key stakeholders later this month. These examples and other reviews are used as
                                              the basis for Ex-Im Bank’s underlying philosophy to continuously seek ways to improve upon policies
                                              and procedures as well as to maintain transparency and better inform key stakeholders. Ex-Im Bank
                                              will continue these efforts now and in the future.


                                     Management letter on portfolio risk mitigation techniques
                                     http://exim.gov/oig/documents/Portfolio%20Risk%20Mgmt%20Ltr%20to%20CFO%20120928.pdf


                                     The OIG’s Management Letter on portfolio risk mitigation techniques complements the above OIG report on loss
                                     reserve allocation policies in two respects.


                                     First, we summarize our discussions with a broad group of financial institutions on portfolio risk mitigation best
                                     practices. Second, we provide an overview of the risk management techniques used by these institutions to
                                     mitigate inherent risks.


                                     We believe Ex-Im Bank would benefit from a comprehensive assessment of both agency-wide risk factors
                                     and portfolio risk mitigation techniques. This assessment should be conducted in consultation with OMB. The
                                     results of this assessment would inform the design of a robust risk management framework that is critical to
                                     Ex-Im Bank’s long-term ability to manage its growing portfolio. This initiative is timely given the reauthorization
                                     of Ex-Im’s Charter in May 2012 and the attendant increase in Ex-Im Bank’s exposure cap to $140 billion by 2014.
                                     Finally, our review of risk management best practices confirms the need for Ex-Im Bank management to address
                                     systematically the diverse mix of qualitative and quantitative risk factors that confront Ex-Im Bank’s portfolio as it
                                     fulfills its strategic mission.


                                     Ex-Im Bank customer survey evaluation (OIG-INS-12-03 September 27, 2012)
                                     www.exim.gov/oig/upload/Official-Final-Customer-Survey-Report-120928-20Summary-1.pdf


                                     In June 2012, more than 1,900 Ex-Im Bank customers were invited to respond to a 20-question online customer
                                     experience survey. Five hundred completed the survey, for a response rate of 26 percent. Questions covered
                                     product and service usage, satisfaction with service delivery, perception of transaction response time, improve-
                                     ment ideas, and company demographics. The survey asked respondents “How likely are you to recommend
                                     Ex-Im Bank’s programs to a colleague or fellow exporter?” in order to calculate a Net Promoter Score® (NPS) and
                                     queried respondents who had worked with other ECAs to compare their experiences.


                                     The OIG designed the survey and hired an independent contractor to administer the survey and analyze the
                                     results. The survey’s objectives include: (1) to identify customers’ perceptions of Ex-Im Bank’s services and service
                                     delivery, (2) to determine customer priorities and primary drivers of customer satisfaction, and (3) to identify po-
                                     tential service improvements where Ex-Im Bank should concentrate efforts in order to improve customer satisfac-
                                     tion. The survey and evaluation complement our earlier report on performance metrics for operational efficiency.




28   Office of Inspector General | Export-Import Bank of the United States
The survey provided valuable feedback. First, it helped validate the profile of Ex-Im Bank’s customer base.
Customers responding to the survey primarily worked for companies with less than 100 employees (77 percent)
that mainly use short-term export credit insurance (85 percent) and are in manufacturing and sales of capital/
non-capital equipment (72 percent). Second, it confirmed the perceived relevance of Ex-Im Bank to its customers,
with 88 percent of all respondents stating they are “satisfied” with Ex-Im Bank’s products and services giving this
area a 5.9 out 7.0 average satisfaction rating. Third, the survey generated the measure of customer satisfaction
known as NPS. Ex-Im Bank’s score of 47 percent compares favorably with the mean NPS of the financial services
industry of 24 percent. Finally, the survey helped determine that improvements in Ex-Im Bank’s transaction
processing times and IT platform will increase customer satisfaction more than improvements made in any other
areas. These improvements are consistent with Ex-Im Bank’s 2010-2015 Strategic Plan.


During the reporting period, Ex-Im Bank hired a Senior Vice-President for Customer Satisfaction to focus on
Ex-Im Bank’s customer experience and to address some of the matters identified by Ex-Im Bank’s customers
in our report.




                                                                               Office of Inspector General | Export-Import Bank of the United States   29
Office of Investigations
                  Office of Investigations


                                     The Office of Investigations (OI) conducts and coordinates investigations relating to alleged or suspected violations
                                     of laws, rules, or regulations occurring in Ex-Im Bank programs and operations. The subjects of OI investigations
                                     can be program participants, contractors, Ex-Im Bank management or employees. OI Special Agents are Federal
                                     Criminal Investigators (job series 1811). Investigations that uncover violations of Federal law, rules, or regulations
                                     may result in criminal or civil prosecution, and administrative sanctions.


                                     During this period OI achieved several milestones toward meeting objectives of investigating and preventing
                                     trade finance and export credit fraud, including:
                                         •    Five criminal judgments resulting in 51 months’ imprisonment, 228 months’ probation, and $1,856,515
                                              in criminal restitution, forfeiture, and special assessments.
                                         •    Nine administrative actions2 stemming from referrals of active investigative information resulting in
                                              $3,279,919 in payments to Ex-Im Bank, including one voluntary exclusion resulting in 120 months’
                                              debarment.
                                         •    Seven criminal informations and indictments against subjects of ongoing investigations.
                                         •    Two arrest warrants and three arrests based on warrants obtained by Ex-Im OIG Special Agents.
                                         •    Three plea agreements entered in court by subjects pursuant to ongoing investigative matters.
                                         •    104 reports of investigative information provided to Ex-Im Bank Office of General Counsel concerning
                                              potential funds at risk to support enhanced due diligence efforts in approving, processing, and monitoring
                                              export credit loan guarantees and insurance policies.
                                         •    Six investigative matters referred to the Department of Justice for prosecutive decision.


                                     Investigations this period
                                     The OI evaluates all reports of possible fraud or illegality affecting Ex-Im Bank programs and activities.
                                     Those reports are received from Ex-Im Bank employees, Ex-Im Bank Office of General Counsel, participants in
                                     Ex-Im Bank transactions, other government agencies, and Ex-Im Bank OIG Hotline. Evaluations that identify
                                     reasonable indications of possible fraud or illegality result in an investigation.


                                                 Activity                                               Investigations              Claims*            Claim amounts
                                                 Open as of April 1, 2012                                      38                      516               $338,553,176
                                                 Opened                                                         8                      20                 $16,215,934
                                                 Closed                                                        (7)                     (34)              ($15,256,479)
                                                 Open as of September 30, 2012                                 39                      502               $339,512,631


                                                * The number and amount of claims paid subject to investigation. Not all investigations involve claims paid by
                                                Ex-Im Bank. Not all claims opened or closed in the period are related to cases opened or closed in the period but may
                                                be related to other active investigations. Referral of a claim to the OIG for investigation does not establish the existence
                                                of fraud and not all claims included in a case are necessarily fraudulent until proven so by evidence. The number of
                                                claims may vary as facts and findings develop.




                                      2 Administrative actions are responses by Ex-Im Bank to stop transactions, cancel policies, or protect funds at risk based upon
                                         investigative findings.




32   Office of Inspector General | Export-Import Bank of the United States
Investigative results
The OI obtained these actions this period:


        Description                                                    OIG            Joint activities*           Total
        Matters referred to the Department of Justice                    4                     2                    6
        Arrest warrants obtained                                         1                     1                    2
        Arrests                                                          1                     2                    3
        Criminal indictments, informations, complaints                   3                     4                    7
        Pleas entered                                                    0                     3                    3
        Criminal judgments                                               2                     3                    5
        Prison time (months)                                            12                    39                    51
        Probation (months)                                              72                   156                   228
        Court-ordered fines, restitution, and forfeiture            $148,322             $1,708,193            $1,856,515
        Administrative actions**                                         0                     9                    9
        Administrative cost savings and repayments                      $0               $3,279,919            $3,279,919


       * Investigations with other law enforcement agencies.
       ** Responses by Ex-Im Bank to stop transactions, cancel policies, or protect funds based upon investigative findings.




Investigations
Export credit insurance program
One of Ex-Im Bank’s key programs — the export credit insurance program — has been particularly susceptible
to fraud schemes by foreign borrowers, U.S. exporters, and other transaction participants. This program
accounts for several investigations underway. Criminal activity exploits processes in order to induce Ex-Im Bank
to approve insurance coverage.


         The export credit insurance program offers protection in the form of several different insurance
         policy types to U.S. exporters and their lenders against non-payment by foreign buyers due to
         commercial and political risks. Export credit insurance allows exporters to increase export sales
         by limiting international repayment risk, offering credit to international buyers, and enabling
         exporters to get access to working capital funds. One fraudulent scheme involves the falsifica-
         tion of shipping records to convince Ex-Im Bank that the described goods have been shipped
         when they have not.


Successful investigative efforts within this program include:
Miami resident sentenced for conspiracy to defraud Export-Import Bank
Miami resident Guillermo Sanchez, 55, was sentenced on July 12, 2012, to 200 hours of community service, and
48 months of supervised release for his role in a scheme to defraud Ex-Im Bank of $854,000. Sanchez previously
had pleaded guilty on April 29, 2010 in U.S. District Court in Washington, D.C., to one count of conspiracy to
defraud Ex-Im Bank and one count of mail fraud in connection with ten loans guaranteed by Ex-Im Bank.




                                                                                        Office of Inspector General | Export-Import Bank of the United States   33
                           Office of Investigations


                                              According to court documents and testimony at the plea hearing, from May 2006 through August 2007 Sanchez
                                              acted as a purported exporter of construction equipment to South America in ten loan transactions. The loans
                                              were obtained from a Florida bank and insured by Ex-Im Bank. Sanchez admitted that he and a co-conspirator
                                              prepared and submitted to the Florida bank and Ex-Im Bank loan documents — including commercial invoices,
                                              packing lists and bills of lading — falsely reflecting that Sanchez purchased and shipped $854,000 worth of
                                              generators manufactured in the United States to South American customers. 


                                              According to court documents and testimony, Sanchez’s company, ACE Products, received $853,642 in loan
                                              proceeds based on the false representations and Sanchez retained a portion of the money for his personal bene-
                                              fit and use. Around August 2007, defaults on the loan transactions caused Ex-Im Bank to pay the Florida bank’s
                                              claim for outstanding principal and accrued interest of approximately $854,000. This case was investigated by
                                              Ex-Im Bank OIG.


                                              Former Miami office manager sentenced for defrauding Ex-Im Bank
                                              Norma I. Borgono, 57, a Miami resident and former officer manager of Texon, Inc., an exporting company in
                                              Miami, was sentenced on May 10, 2012 to 12-months home incarceration. In addition, Borgono was ordered to
                                              pay $5,000 in restitution, $1,997 in forfeiture, and serve 60 months of supervised release. The Honorable U.S.
     The headlines                            District Judge Ricardo M. Urbina, District of Columbia, sentenced Borgono for her role in defrauding Ex-Im Bank.
     •    Miamian sentenced                  Borgono had previously pled guilty on December 12, 2011 to criminal charges of conspiracy to commit mail fraud.
          for conspiracy
     •    Former office manager               According to court records, Borgono, a naturalized U.S. citizen born in Peru, worked as the officer manager
          sentenced                           of Texon, Inc., owned by Guillermo Mondino. Texon exported construction equipment to buyers in foreign
     •    Texan sentenced to prison           countries. Judge Urbina sentenced Mondino to 46 months in prison on November 1, 2011 (the press release on
     •    Former M&T employee                 Mondino’s sentencing is online at http://exim.gov/oig/documents/Mondino%20Sentencing%20111101.pdf).
          sentenced                           Mondino admitted that he assisted numerous foreign buyers to obtain fraudulent loans that were insured by
     •    Three charged in schemes            Ex-Im Bank.
     •    Subjects plead guilty in Texas
     •    New Hampshire man                   Borgono assisted Mondino to prepare false loan documents for transmittal to banks associated with Ex-Im insured
          sentenced                           loans. From 2003 through 2009 Mondino and Borgono, through Texon, assisted foreign buyers to create fraudulent
     •    Agents make arrest in fraud         loan applications, financial statements, purchase orders, invoices and bills of lading to represent falsely to lending
                                              banks and Ex-Im Bank the purchase and export of U.S. goods to buyers in South and Central America. After receiv-
                                              ing more than $24 million in Ex-Im Bank insured loan proceeds, Mondino diverted $6.4 million of the proceeds to
                                              the foreign buyers. According to court records, all of the loans involving Texon were fraudulent. As a result of the
                                              fraud, the loans went into default, causing Ex-Im Bank to pay $14.1 million in claims to the lending banks.


                                              This case was investigated by Ex-Im Bank OIG agents and U.S. Postal Inspectors in Miami, Fla. The Financial
                                              Crimes Enforcement Network (FinCEN) also provided assistance.


                                              Texan sentenced to prison for scheme to defraud Export-Import Bank
                                              Hector Cuevas of Fabens, Texas, was sentenced June 5, 2012 to 15 months in prison for his role in a scheme to
                                              defraud Ex-Im Bank of more than $690,624.




34            Office of Inspector General | Export-Import Bank of the United States
Cuevas, 42, was also sentenced by Judge Kathleen Cardone in U.S. District Court in El Paso to three years of
supervised release and was ordered to pay $553,148 in restitution and $690,624 in forfeiture. Cuevas pleaded
guilty on Oct. 13, 2011 to conspiracy to commit wire fraud, wire fraud, and money-laundering conspiracy. Cuevas
admitted he participated in a scheme to defraud Ex-Im Bank of more than $690,000.


According to court documents, Cuevas was the owner of CT Implement, Inc., a farm-equipment sales company
in Fabens that purported to be in the business of exporting U.S. agricultural equipment to Mexico. During his
plea hearing Cuevas admitted he helped others prepare and submit false applications, financial records, and
export documents to two lending banks to assist co-conspirators in Mexico in obtaining two Ex-Im Bank insured
loans purportedly for the purchase of equipment from Cuevas’ company. Once the loans were approved, Cuevas
said he acted as a money launderer by illegally transferring Ex-Im Bank insured proceeds to both borrowers and
others in Mexico. Both loans defaulted and caused Ex-Im Bank to pay $583,430 in claims to the lending banks.


The case was investigated by Ex-Im Bank OIG and Immigrations and Customs Enforcement — Homeland Security
Investigations in El Paso. FinCEN also provided assistance and financial analysis.


Former M & T Bank employee sentenced for stealing more than $223,000
Rosamaria T. Somarriba, 67, Baltimore, was sentenced May 31, 2012 to 12 months’ home confinement, 60
months’ supervised release, and ordered to pay $233,462 in forfeiture and the same amount in restitution in
connection with a scheme to defraud her employer’s bank customer and Ex-Im Bank.


Somarriba previously pleaded guilty January 30, 2012 in U.S. District Court, District of Maryland, Baltimore.
According to her plea agreement Somarriba was employed within the International Trade Finance Division of
M&T Bank in Baltimore. Somarriba began working at the bank in 1985 and at the time of her termination in early
2011 had attained the position of assistant vice president, relationship liaison. Somarriba was able to get access
to customer accounts and transfer funds between them. Ex-Im Bank provided loan guarantees and insurance
coverage to M&T Bank.


In March 2011, after Somarriba had been terminated by M&T Bank for reasons unrelated to this case, the bank
uncovered suspicious activity within the account of one of its bank customers, Company A. Company A had
defaulted on its Ex-Im Bank-guaranteed loan in October 2007. As a result M&T Bank had filed a claim with Ex-Im
Bank, which agreed to cover Company A’s owed payments and to pay M&T Bank according to the original terms
of Company A’s loan. However, the payments Ex-Im Bank had paid M&T Bank on behalf of Company A exceeded
the amounts required to continue funding the loan, and excess funds accumulated within Company A’s account.


Between July 2006 and May 2010, Somarriba, who knew about the accumulation of these excess funds, made
at least four unauthorized transfers out of Company A’s account, representing at least $169,582 originally be-
longing to Ex-Im Bank, into another customer’s account held by Company B. Somarriba then made more than 30
unauthorized debits from Company B’s account amounting to at least $211,072 for her benefit. Somarriba stole
at least $169,582 in Ex-Im Bank funds and at least $41,490 in Company B’s funds.




                                                                                 Office of Inspector General | Export-Import Bank of the United States   35
                  Office of Investigations


                                     Additionally, Somarriba withdrew $12,390 from Company B’s account to satisfy family debts owed to the Internal
                                     Revenue Service. From at least as early as 2006 through at least February 2011, Somarriba defrauded Ex-Im Bank
                                     and Company B of at least a total of $223,462. This case was part of an ongoing investigation by Ex-Im Bank
                                     OIG and President Barack Obama’s Financial Fraud Enforcement Task Force.


                                     Three charged in schemes to defraud Ex-Im Bank
                                     Three suspects were charged by criminal Information in two separate investigations in Florida and Colorado. Two
                                     of the defendants were charged in Florida for their role in a conspiracy to commit wire fraud in schemes to defraud
                                     Ex-Im Bank related to fraudulent exports to South America. In another investigation, a subject was charged in Colo-
                                     rado with conspiracy to commit wire fraud related to fraudulent exports into Mexico. The defendants await judicial
                                     actions in federal court, and these investigations concerning $15.7 million in claims against Ex-Im Bank continue.


                                     Subjects plead guilty in Texas Ex-Im Bank fraud cases
                                     Three defendants involved in two ongoing investigations in Texas are facing various judicial actions for their
                                     roles to defraud Ex-Im Bank. In one investigation a subject was arrested by U.S. Customs and Border Protection
                                     agents, based on an arrest warrant obtained by Ex-Im Bank OIG agents, as he entered the United States from
                                     Mexico. He was charged and subsequently pleaded guilty and awaits sentencing.


                                     In another case, Ex-Im Bank OIG agents arrested a subject as he surrendered at the Texas border pursuant to a
                                     2010 indictment and arrest warrant sought by Ex-Im Bank OIG agents. The defendant was a fugitive previous-
                                     ly sought by agents for his role in a scheme to defraud Ex-Im Bank. In the same case, another defendant was
                                     charged by criminal Information and pleaded guilty in federal court for his role in the fraud. These actions show
                                     efforts to address fraudulent export-credit insurance schemes in Mexico and Ex-Im Bank OIG’s law enforcement
                                     efforts with other agencies. All defendants are awaiting judicial action in federal court and the investigations
                                     concerning $2.8 million in claims against Ex-Im Bank continue.


                                     Export-Import Bank program integrity
                                     The Office of Investigations conducts investigations into violations of federal laws affecting the integrity of
                                     Ex-Im Bank’s programs and the general public’s trust and reliance on those programs and representations. These
                                     investigations involve allegations such as the misuse of official government seals and letterhead, forgeries of bank
                                     officials’ signatures, false Letters of Interest, or other misrepresentations or misconduct in which criminals falsely
                                     purport to victims that they have the authority, approval, or support of Ex-Im Bank.


                                     Successful investigative efforts within this area during the period include:
                                     Man sentenced for defrauding international customers of New Hampshire business
                                     Paul Wilson, 41, formerly of Dover, New Hampshire, was sentenced August 21, 2012, in United States District
                                     Court for the District of New Hampshire to 12 months and one day in prison and two years’ supervised release
                                     for defrauding several international customers of his former employer, Goss International Americas Corporation.


                                     Wilson was the international trade finance manager for Goss, which manufactures commercial printing presses.
                                     His job included securing financing for foreign purchasers of Goss’s products and working with Ex-Im Bank to
                                     obtain guarantees or credit insurance for loans extended to Goss’ foreign customers.




36   Office of Inspector General | Export-Import Bank of the United States
From about 2004 through about 2008, Wilson defrauded several Goss customers of $148,000. He assisted in
forming a shell company called Zephyr Financial, LLC. Zephyr Financial, LLC, sent invoices for loan underwriting
and structuring services that were either never rendered or that Wilson performed as part of his job at Goss
to several of Goss’ commercial customers in Mexico and Brazil. These invoices totaled tens of thousands of
dollars in bogus charges. The victim companies wired payments for the fraudulent invoices to a bank account
controlled by Wilson.


On June 8, 2011, a federal grand jury indicted Wilson for wire fraud in connection with this scheme and he pled
guilty to three counts of wire fraud on January 30, 2012. This case was investigated by Ex-Im Bank OIG.


OIG agents arrest subject in program integrity fraud
In a related matter, Ex-Im Bank OIG agents arrested a subject in Massachusetts for his role in allegedly de-
frauding several foreign buyers of Ex-Im Bank products. The subject was previously indicted in federal court for
conspiracy to commit wire fraud, and a warrant was subsequently issued for his arrest. This investigation high-
lights efforts to protect the integrity of Ex-Im Bank programs and alleged victims who believed they were doing
business with Ex-Im Bank. The defendant faces judicial action in federal court and the investigation continues.




Other investigative results
Special Agents work with Ex-lm Bank to help protect funds
To the extent permissible and within the confines and limitations of an investigation, OI Special Agents work
collaboratively to share investigative intelligence with the Office of General Counsel, Credit and Risk Manage-
ment Division, and Asset Management Division of Ex-Im Bank to help identify potential and suspected fraudulent
activity within Bank transactions and to protect Bank funds.


During this period OI communicated with Ex-Im Bank management to enhance the monitoring of several
transactions and due diligence reviews of proposed transactions based on investigative leads. We shared law-
enforcement intelligence with Ex-Im Bank on matters concerning suspected criminal activity by participants
involved in active policies or transactions under review. For example, OI coordination with the Department of
Justice (DOJ) and Ex-Im Bank helped facilitate nine administrative actions resulting in the direct repayment and
collection of outstanding debt by responsible parties in amounts totaling $3,279,919.


In another example OI investigative results were presented to the Office of General Counsel, which pursued
suspension and debarment efforts against one individual. As a result, the party voluntarily excluded himself
from participating in Ex-Im Bank transactions and was debarred for ten years. The party agreed and has repaid
Ex-Im Bank $1.4 million of outstanding debt. In another case, a defendant — through coordination with DOJ and
Ex-Im Bank — has repaid Ex-Im Bank $1,250,000 that was owed as a result of defaults and claims paid resulting
from fraudulent activity.


OI made 104 referrals of investigative information to Ex-Im Bank Office of General Counsel concerning potential
fraud and funds at risk for enhanced due diligence by Ex-Im Bank.




                                                                               Office of Inspector General | Export-Import Bank of the United States   37
                  Office of Investigations


                                     These efforts are part of the OI objective to protect funds at risk concurrent in monitoring, oversight, and collec-
                                     tion efforts involving transactions in which fraud is uncovered.


                                     Investigative capabilities strengthened by Memorandum of Understanding
                                     and other law enforcement partnerships
                                     OI further strengthened its investigative capabilities and investigative support by entering into a Memorandum
                                     of Understanding (MOU) with the Financial Crimes Enforcement Network. The MOU allows for operational and
                                     field support during investigations nationwide through access to financial intelligence related to criminal-trade
                                     finance fraud investigations. The MOU will help OIG utilize available information and evidence.


                                     Also, OI met with the European Commission AntiFraud Office (OLAF) to discuss international support on
                                     Ex-Im Bank OIG investigations and matters of interest. OLAF investigates fraud against the EU budget, corrup-
                                     tion, and misconduct within European institutions, and develops anti-fraud policy for the European Commission.
                                     Efforts were made to identify common fraud risk scenarios and discuss joint partnerships in structured projects
                                     in Africa, Eastern Europe, or other areas where European Union funding and Ex-Im Bank financing may intersect
                                     or flow to common subjects. Information was shared concerning ways to enhance business intelligence and to
                                     determine if common entities or suspected parties exist by and between OLAF and Ex-Im Bank. Such efforts help
                                     strengthen joint capabilities and investigations.




                                     Outreach
                                     OIG educates about identifying and reporting fraud, waste and abuse
                                     As part of the OIG’s mission to prevent and detect fraudulent activity, efforts have been made to meet with and
                                     educate stakeholders and other law enforcement partners about the risks and fraud scenarios common in trade
                                     finance and export credit fraud cases.


                                     On June 19, 2012, an OI representative lectured at the Inspector General Academy’s Transition Training Program
                                     in Leesburg, Va. The program is designed for law enforcement agents entering the Inspector General community.
                                     The attendees were 60 law enforcement professionals, and information was provided concerning international
                                     trade finance fraud and the role and responsibility of Ex-Im Bank OIG.


                                     On May 7, 2012, an OI representative spoke at the Washington, D.C., chapter of the Certified Fraud Examiners,
                                     to discuss Ex-Im Bank OIG and international trade finance fraud investigations. The participants included mem-
                                     bers of the banking community, federal and local law enforcement, and experts in financial fraud investigation
                                     and the protection of institution and bank funds. This presentation offered common fraud scenarios and efforts
                                     by the OIG and law enforcement agencies to protect Ex-Im Bank.


                                     The OIG published and produced a brochure focused on international trade finance fraud entitled Red Flags on
                                     Export-Import Bank Guaranteed Loans and Insurance Transactions. The brochure is a guide for Ex-Im Bank staff
                                     and others involved in international trade finance and exports. The brochure identifies common fraud scenarios and
                                     encourages those who suspect fraudulent activity in Ex-Im Bank transactions to report such matters to the OIG.




38   Office of Inspector General | Export-Import Bank of the United States
Hotline
Ex-Im Bank OIG maintains a hotline to receive reports of fraud, waste, and abuse in Ex-Im Bank programs and
operations. Hotline reports are evaluated by our investigative team and might result in the initiation of an investi-
gation, audit, referral to other law enforcement authorities, or referral to management for administrative action.


The OIG received seven hotline reports. Four were referred for investigation, one was referred to OIG counsel for
review, and two were resolved and closed by the hotline.


Hotline reports may be made by these methods:
   PHONE 1-888-OIG-EXIM (1-888-644-3946)
   EMAIL IGhotline@exim.gov
   MAIL OR DELIVERY SERVICE
   Ex-Im Bank OIG Hotline,
   Office of Inspector General
   811 Vermont Ave. NW
   Washington, D.C. 20571


The OIG will not disclose the identity of a person making a report through the hotline without their consent
unless the IG determines such disclosure is unavoidable during the course of an investigation.




                                                                                 Office of Inspector General | Export-Import Bank of the United States   39
Appendix A
Recommendations
from prior reporting periods
This table shows that 33 of 35 recommendations from four audit, inspection, and evaluation reports remain
open. Sixteen are from two reports issued during the last period. The oldest is from FY 2010.


                                                                   Recommendations                Latest target
 Report date      Title                                           Total    Open      Closed       closure date
 Last period
 Audits
 OIG-AR-12-04     Audit of Information Technology Support         11       11           0            1/31/13
 1/24/12          for Export-Import Bank’s Mission
 Inspections and evaluations
 OIG-INS-12-01    Report on Performance Metrics for               8        8            0            9/30/13
 3/27/12          Operational Efficiency and Customer
                  Service, Phase 1
 Prior periods
 Audits
 OIG-AR-11-04     Working Capital Guarantee Delegated             3        1            2            10/1/12
 7/8/11           Authority Program
 Inspections and evaluations
 OIG-EV-10-03     Evaluation Report Relating to Economic          16       16           0         None provided
 9/17/10          Impact Procedures
                                                        Total     35       33           2




                                                                                Office of Inspector General | Export-Import Bank of the United States   41
Appendix B
Peer review reporting
This appendix complies with Section 5(a)(14)-(16) of the IG Act of 1978, as amended.


Of the audit function
Under government standards, OIG audit functions must have an external peer review at least every three years.
The next peer review of OIG audit functions will be in 2014.




Of the investigation function
As of July 2011, Ex-Im Bank OIG derives its law enforcement authority from Section 6(e) of the IG Act of 1978, as
amended. As such, the OIG is required to undergo an external peer review process of our investigative function
every three years. The peer review is scheduled for summer 2014.




Of other OIGs
The Ex-Im Bank OIG did not conduct a peer review of any other OIG during this reporting period. It has scheduled
a peer review of the audit function of the Consumer Product Safety Commission OIG for fall 2013. Also scheduled
is a peer review of the investigation function of the Office of Personnel Management OIG for the end of 2012.




                                                                              Office of Inspector General | Export-Import Bank of the United States   43
Appendix C
Abbreviations and acronyms
APP          Annual Performance Plan
CFE          Certified Fraud Examiners
CRO          Chief Risk Officer
CIGIE        Council of Inspectors General on Integrity and Efficiency
CRTI         Character, Reputation, and Transaction Integrity
DOJ          U.S. Department of Justice
ECA          Export Credit Agency
EX-IM BANK   Export-Import Bank of the United States
EU           European Union
FinCEN       Financial Crimes Enforcement Network
FY           Fiscal Year
GAO          U.S. Government Accountability Office
GPRA         Government Performance and Results Act of 1993 and GPRA Modernization Act of 2010
IDA          Individual Delegated Authority
IG           Inspector General
IPA          Independent Public Accountant
IT           Information Technology
MOU          Memorandum of Understanding
NASA         National Aeronautics and Space Administration
NPS          Net Promoter Score
OA           Office of Audits, Office of Inspector General, Export-Import Bank
OI           Office of Investigations, Office of Inspector General, Export-Import Bank
OIE          Office of Inspections and Evaluations, Office of Inspector General, Export-Import Bank
OIG          Office of Inspector General
OLAF         European Commission Anti-Fraud Office
OMB          Office of Management and Budget, The White House




                                                                         Office of Inspector General | Export-Import Bank of the United States   45
Appendix D
Inspector General Act
reporting requirements
Inspector General
                                               Requirement definition                                  Page
   Act citation
Section 4(a)(2)      Review of Legislation and Regulations                                               9
Section 5(a)(1)      Significant Problems, Abuses, and Deficiencies                                    11–15
Section 5(a)(2)      Recommendations for Corrective Actions                                            18–21
                                                                                                       24–29
Section 5(a)(3)      Prior Significant Audit Recommendations Yet to Be Implemented                       39
Section 5(a)(4)      Matters Referred to Prosecutive Authorities                                         33
Sections 5(a)(5)     Summary of Refusals to Provide Information                                        None
and 6(b)(2)
Section 5(a)(6)      Audit Products Issued Including Total Dollar Values of Questioned Costs,          None
                     Unsupported Costs, and Recommendations that Funds Be Put to Better use
Section 5(a)(7)      Summary of Particularly Significant Reports                                       18–29
Section 5(a)(8)      Total Number of Reports and Total Dollar Value for Audits with                    None
                     Questioned Costs
Section 5(a)(9)      Total Number of Reports and Total Dollar Value for Audits with                    None
                     Recommendations that Funds Be Put to Better Use
Section 5(a)(10)     Summary of Prior Audit Products for which No Management Decision                    41
                     Has Been Made
Section 5(a)(11)     Description and Explanation of Significant Revised Management Decisions           None
Section 5(a)(12)     Significant Management Decisions with which the Inspector General Disagreed       None
Section 5(a)(13)     Reporting in Accordance with Section 5(b) of the Federal Financial                None
                     Management Improvement Act of 1996 Remediation Plan
Sections 5(a)(14),   Peer Reviews Conducted and Outstanding Recommendations                              43
(15) and (16)




                                                                           Office of Inspector General | Export-Import Bank of the United States   47
How to report fraud, waste and abuse
The Inspector General Act of 1978 states that the Inspector General (IG) may receive and investigate
complaints or information concerning the possible existence of an activity constituting a violation of
law, rules, or regulations, or mismanagement, gross waste of funds, abuse of authority or a substan-
tial and specific danger to the public health and safety. Whether reporting allegations via telephone,
mail, or in person, the OIG will not disclose the identity of persons making a report without their con-
sent unless the IG determines such disclosure is unavoidable during the course of the investigation.
You may submit your complaint or information by these methods:


In person
   Office of Inspector General
   Export-Import Bank of the U.S.
   811 Vermont Avenue, NW
   Washington, D.C. 20571


Telephone
   1- 888-OIG-EXIM
   (1-888-644-3946)


Mail
   Ex-Im Hotline
   Office of Inspector General
   Export-Import Bank of the U.S.
   811 Vermont Avenue, NW
   Washington, D.C. 20571


E-mail
   IGhotline@exim.gov
OFFICE OF INSPECTOR GENERAL
Export-Import Bank of the United States
811 Vermont Avenue, NW
Washington, D.C. 20571


Telephone 202.565.3908
Facsimile 202.565.3988


www.exim.gov/oig
